                               CLOSEOUT FOR M-94060022




Award" section as q m s e h g work done under

datespvidedbythesubjedinhis~fbrthe~gapersalltheworkcontainedinthemd
nothavebeerrsugportedbytheaward. ~ o f t R e l p a g e r s w e ~ e s u b m i t t e d ~ a f t e r t h e a d s
initiatim while two of the papers were accepted for prblicahonjust prior to the a d s initiation The
co-PI on the proposal was not considered a subject in this case bearuse he was not associated with any
of the information provided in the subjed's statement.

        OIG reviewed the subject's NSF proposal and the award as well as the 6ve papers identified by
the complainant. OIG found that three of the five gapers were su&nitted between four and 6ve months
after the official inihrion of the award while the other two ~aperswere submitted three and eleven
months p i o r to its official initiation A[I five papers were plMished after the a d s initiation

       01Gnotedthattheadcnowledgment~inall~papersbdicatedthatthesubjed'sNSF
award supported the work. In arfditiots four ofthe he papers acknowledged that an NSF Graduate
Student Fellowdig (GSF) supgorted the work

        Withregad tothehreegapersdnnitted hfburtofhemonthsaftertheawadsinitiation,
OIG noted tRat all thre!e papers wen p d k k d welj over a year later. OIG conduded that the
additional work associated with final analyses, revisions, and guMication costs was well within the time
frame in which the subject was supported by the award. M o r e it was appropriate for the subject to
acknowledge NSF support and to list these papers as part of the work done under the award.
       OIG wrote to the subject quest@ h f b m a h about the aclcno-                  1) to the @SF
support that we were unable! to dent@, and 2) to aRe award's support fbr the work associated with tRe
t w o p p e s h t h a d l ~ ~ ~ ~ t o a h e a w a r d s o ~ i n i t i Thesubject'sresponse
                                                                      ation
provided explanationswith appropriate supporting doammition.

        ahe~p~doarmentationahatRis~Jlhulentwhohadbeenacoguthoton
fbur ofthe five pagers had been supported udx an NSF GSF fbr three years beghnhg one year prior
t~ the official ir6tiation of the subjed's award. 81G cl#lduded that the subject had properOy
~wledgedNSFsupportfbfhisgraduaPesEudenPinthe~papers.

       'Fhesubjeae>rplainedand~tha!heaskedfbrandreceivedgermissionhhis
~on'sGrantsdC~~toinatrBfegwardcosts~aboutthreemnths~or
to the award's o t l h l initiation date. He requested this after he learned Eiom a program officer that he
would seceive the award. He explained that, with respct to the two ppes submkl prior to the
officialirritiationoftheaward,both~thecomrrritmentofawatdandgreawatdcostsfiuthe
veaificatjonofseseardaand~revhns. I n a d d i t h , f i u t h e o n e p a g e r ~ e O e v e n m o n t h s
priortotheofficial hitiahoftheaward, pwwadcostswerecommitted fiuthe payment ofexcess
pagecRarges-

         O I G ~ t h a t t h e s u t j e d h a d ~ ~ h i s N S F s u p p oTherewasno       r t .
s u b s t a n c e t o t h e a l l & o n t h a t t h e s u t j e c t M ~ hisNSFsupportinhisppod.



cc:    StaffScientist, Deputy A=&             AIG-Owmight,IG
